FILED: August 20, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7744
(2:19-cv-01284-JFA)

WAYNE WELLS, JR.
Petitioner - Appellant
v.
TERRIE WALLACE, Warden
Respondent - Appellee

JUDGMENT

In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

J;» h

PER CURIAM:
Wayne Wells, Jr., seeks to appeal the district court’s order accepting the
recommendation of the magistrate judge and denying relief on Well’s 28 U.S.C. § 2254
(2018) petition. The order is not appealable unless a circuit justice or judge issues a
certificate of appealability.

See 28 U.S.C. § 2253(c)(1)(A) (2018).

A certificate of

appealability will not issue absent “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2) (2018). When the district court denies relief on the merits,
a prisoner satisfies this standard by demonstrating that reasonable jurists would find the
district court’s assessment of the constitutional claims debatable or wrong. See Buck v.
Davis, 137 S. Ct. 759, 773-74 (2017). When the district court denies relief on procedural
grounds, the prisoner must demonstrate both that the dispositive procedural ruling is
debatable and that the petition states a debatable claim of the denial of a constitutional
right. Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v. McDaniel, 529
U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Wells has not made
the requisite showing. Accordingly, we deny a certificate of appealability and dismiss the
appeal. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7744

WAYNE WELLS, JR.,
Petitioner - Appellant,
v.
TERRIE WALLACE, Warden,
Respondent - Appellee.

Appeal from the United States District Court for the District of South Carolina, at
Charleston. Joseph F. Anderson, Jr., Senior District Judge. (2:19-cv-01284-JFA)

Submitted: April 14, 2020

Decided: August 20, 2020

Before WILKINSON, QUATTLEBAUM, and RUSHING, Circuit Judges.

Dismissed by unpublished per curiam opinion.

Wayne Wells, Jr., Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

FILED: September 11, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7744
(2:19-cv-01284-JFA)

WAYNE WELLS, JR.
Petitioner - Appellant
v.
TERRIE WALLACE, Warden
Respondent - Appellee

MANDATE
The judgment of this court, entered 08/20/2020, takes effect today.
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.

/s/Patricia S. Connor, Clerk

2:19-cv-01284-JFA

Date Filed 10/31/19

Entry Number 26

Page 1 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA

C/A No.: 2:19-1284-JFA-MGB

Wayne Wells, Jr., #314139,
Petitioner,

ORDER

vs.
Terrie Wallace,
Respondent.

I.

INTRODUCTION
Wayne Wells (“Petitioner”), a pro se state prisoner, filed the instant petition for writ

of habeas corpus pursuant to 28 U.S.C. § 2254. (ECF No. 1). On July 18, 2019, Warden
Terrie Wallace (“Respondent”) filed a Motion for Summary Judgment along with a return
to the petition and memorandum of law in support. (ECF Nos. 13 & 14). The court advised
Petitioner of the summary judgment procedure and the possible consequences if he failed
to respond via an order issued pursuant to Roseboro v. Garrison, 528 F.2d 309, 310 (4th
Cir. 1975) on the following day. (ECF No. 15). Petitioner fded a response on August 13,
2019, to which Respondent filed a reply on August 20, 2019. (ECF Nos. 17 & 18). In
accordance with 28 U.S.C. § 636(b) and Local Civil Rule 73.02(B)(2)(c) (D.S.C.), this
matter was referred to the Magistrate Judge.

CX\

S

2:19-cv-01284-JFA

Date Filed 10/31/19

Entry Number 26

Page 2 of 11

The Magistrate Judge assigned to this action1 prepared a thorough Report and
Recommendation (“Report”) and opines that this court should grant Respondent’s Motion
for Summary Judgment and dismiss the petition with prejudice. (ECF No. 19). The Report
sets forth, in detail, the relevant facts and standards of law on this matter, and this court
incorporates those facts and standards without a recitation.
The court is charged with making a de novo determination of those portions of the
Report to which specific objections are made, and the court may accept, reject, or modify,
in whole or in part, the recommendation of the Magistrate Judge, or recommit the matter
to the Magistrate Judge with instructions. See 28 U.S.C. § 636(b)(1). However, a district
court is only required to conduct a de novo review of the specific portions of the Magistrate
Judge’s Report to which an objection is made. See 28 U.S.C. § 636(b); Fed. R. Civ. P.
72(b); Carniewski v. W. Virginia Bd. ofProb. & Parole, 974 F.2d 1330 (4th Cir. 1992). In
the absence of specific objections to portions of the Report of the Magistrate Judge, this
court is not required to give an explanation for adopting the recommendation. See Camby
v. Davis, 718 F.2d 198, 199 (4th Cir. 1983). Thus, the court must only review those portions

of the Report to which Petitioner has made a specific written objection. Diamond v.
Colonial Life & Acc. Ins. Co., 416 F.3d 310, 316 (4th Cir. 2005).

The Magistrate Judge’s review is made in accordance with 28 U.S.C. § 636(b) and Local Civil
Rule 73.02(B)(2)(c) (D.S.C.). The Magistrate Judge makes only a recommendation to this Court.
The recommendation has no presumptive weight, and the responsibility to make a final
determination remains with the Court. Mathews v. Weber, 423 U.S. 261 (1976). The Court is
charged with making a de novo determination of those portions of the Report and
Recommendation to which specific objection is made, and the Court may accept, reject, or
modify, in whole or in part, the recommendation of the Magistrate Judge, or recommit the matter
to the Magistrate Judge with instructions. See 28 U.S.C. § 636(b).
2

2:19-cv-01284-JFA

Date Filed 10/31/19

Entry Number 26

Page 3 of 11

“An objection is specific if it ‘enables the district judge to focus attention on those
issues—factual and legal—that are at the heart of the parties’ dispute.’” Dunlap v. TM
Trucking of the Carolinas, LLC, No. 0:15-cv-04009-JMC, 2017 WL 6345402, at *5 n.6
(D.S.C. Dec. 12, 2017) (citing One Parcel of Real Prop. Known as 2121 E. 30th St., 73
F.3d 1057, 1059 (10th Cir. 1996)). A specific objection to the Magistrate’s Report thus
requires more than a reassertion of arguments from the complaint or a mere citation to legal
authorities. See Workman v. Perry, No. 6:17-cv-00765-RBH, 2017 WL 4791150, at.*l
(D.S.C. Oct. 23, 2017). A specific objection must “direct the court to a specific error in the
magistrate’s proposed findings and recommendations.” Orpiano v. Johnson, 687 F.2d 44,
47 (4th Cir. 1982).
“Generally stated, nonspecific objections have the same effect as would a failure to
object.” Staley v. Norton, No. 9:07-0288-PMD, 2007 WL 821181, at *1 (D.S.C. Mar. 2,
2007) (citing Howard v. Sec’y of Health and Human Servs., 932 F.2d 505, 509 (6th Cir.
1991)). The court reviews portions “not objected to—including those portions to which
only ‘general and conclusory’ objections have been made—for clear error.” Id. (emphasis
added) (citing Diamond, 416 F.3d at 315; Camby, 718 F.2d at 200; Orpiano, 687 F.2d at
47).
Petitioner was advised of his right to object to the Report, which was entered on the
docket on August 29, 2019. (ECF No. 19). Petitioner filed objections to the Report on
September 16, 20192 (“Objections”). (ECF No. 22). Respondent replied to the Objections

2 Houston v. Lack, 487 U.S. 266, 271 (1988) (holdingpro se prisoner’s pleading is deemed filed
at moment of delivery to prison authorities for forwarding to district court).
3

2:19-cv-01284-JFA

Date Filed 10/31/19

Entry Number 26

Page 4 of 11

on October 4, 2019. (ECF No. 24). Petitioner also submitted what appears to be a second
response or “sur-reply” to the motion for summary judgment after the Report was issued.
(ECF No. 21). As sur-replies are not authorized by this court’s Local Rules and this
submission is otherwise untimely, this submission will not be considered. Additionally,
Respondent argues that Petitioner’s Objections are untimely as they were due by
September 15, 2019. Despite this contention, Respondent will suffer no prejudice by this
court’s review of these objections as they were only submitted one day after the deadline
and they do not ultimately affect the outcome below.3 Petitioner also filed a “Response to
Reply to Objections to the Report and Recommendation.” (ECF No. 25). Because a
response to replies to Reports and Recommendations are not authorized by the Local Rules,
this document will not be considered.4 Thus, this matter is ripe for review.
II.

LEGAL STANDARD
Under Rule 56 of the Federal Rules of Civil Procedure, summary judgment is proper

when there is no genuine dispute as to any material fact and the moving party is entitled to
judgment as a matter of law. Celotex Corp. v. Catrett, All U.S. 317,322 (1986). A material
fact is one that “might affect the outcome of the suit under the governing law.” Spriggs v.
Diamond Auto Glass, 242 F.3d 179, 183 (4th Cir. 2001) (quoting Anderson v. Liberty
Lobby, Inc., All U.S. 242, 248 (1986)). A dispute of material fact is “genuine” if sufficient

3 This is especially true as Petitioner asserts that any untimely delay in the filing date was caused
by the State of Emergency declared during Hurricane Dorian that mandated an evacuation of
Charleston County. (ECF No. 25 p. 2).
4 This court would note that even if it chose to consider these additional arguments, the outcome
of this order would not change because these arguments are a mere rehashing of all arguments
previously asserted.
4

2:19-cv-01284-JFA

Date Filed 10/31/19

Entry Number 26

Page 5 of 11

evidence favoring the non-moving party exists for the trier of fact to return a verdict for
that party. Anderson, All U.S. at 248^-9.
The moving party bears the initial burden of showing the absence of a genuine
dispute of material fact. Celotex, All U.S. at 323. Once the moving party makes this
showing, however, the opposing party may not rest upon mere allegations or denials, but
rather must, by affidavits or other means permitted by the Rule, set forth specific facts
showing that there is a genuine issue for trial. See Fed. R. Civ. P. 56(e). All inferences must
be viewed in a light most favorable to the non-moving party, but he “cannot create a
genuine issue of material fact through mere speculation or the building of one inference
upon another.” Beale v. Hardy, 769 F.2d 213, 214 (4th Cir. 1985).
III.

DISCUSSION
Although this court incorporates the factual background discussed in the Report, a

brief recitation of the relevant facts is necessary to properly address Petitioner’s Objections.
Petitioner was indicted for second-degree criminal sexual conduct with a minor and he
went to trial in November 2010. The victim testified that when she first met Petitioner, she
told him she was eighteen. The next time they met, however, he asked her if she was fifteen,
as one of her friends had told him that. She admitted that was her real age; a couple of
hours later, they had sex. Over the summer, they had sex several more times. Each time,
he came over to her house after midnight, climbing through her bedroom window.
Petitioner testified in his defense. Fie told the jury the victim said she was eighteen
and never told him anything different. He did not know she actually was fifteen until her
stepfather found him in the house and confronted him. Had Petitioner known her true age,
5

2:19-cv-01284-JFA

Date Filed 10/31/19

Entry Number 26

Page 6 of 11

he would not have had a sexual relationship with her. As he had done in his opening
statement, Petitioner’s trial counsel argued in closing that the victim lied to Petitioner about
her age, causing him to mistakenly think she was eighteen.
After the jury began deliberations in Petitioner’s criminal trial, they sent out the
following questions: “If the defendant truly believed the victim was eighteen, does that
matter and/or is ignorance of her age no excuse?” The trial court answered, “No, and
ignorance is no excuse.” Trial counsel did not object to the court’s answer. It is this judge’s
response to the jury’s questions along his counsel’s failure to object that form the basis of
the two grounds for relief asserted in Petitioner’s habeas petition.
Petitioner’s habeas petition raises the following two issues:
Ground One: Trial Counsel was ineffective when [he] failed to object to
Trial Court[’s] erroneous instruction pertaining to Applicant’s knowledge of
victim’s age to jury’s question[.]
Supporting Facts: The answers to the jury’s question by the Court were an
invasion of the province of the jury [] which remove[d] critical material facts
from the consideration and violated the applicant’s constitutional right to a
fair and impartial trial by his peers. In the light Trial Counsel failure to object
and make Court aware that if the jury reasonably believe that the applicant
proved by the preponderance of the evidence that he believe the victim to be
18 years age was ultimately the jurors[’] discretion and must be left free for
their consideration only.
Ground Two: Trial Judge[’s] answers to jury questions violated
Applicant's] due process rights to a fair and impartial trial of his peers.
Supporting Facts: Trial Court[’s] answers to the jury’s question did not
allow[] the jury to consider the Applicant’s defense and it remove[d] critical
material facts from the jury[’s] consideration. Criminal statutes are presumed
to require a mens rea clause and some congressional intent, express or
implied, is required to dispense with mens rea as an element of a crime.
(ECFNo. 1 p. 5,6-7).
6

2:19-cv-01284-JFA

Date Filed 10/31/19

Entry Number 26

Page 7 of 11

As to Ground One, the Magistrate Judge concluded that Plaintiffs trial counsel was
not ineffective when he failed to object to the trial judge’s response to the questions from
the jury during deliberations. In response, Petitioner claims that “trial counsel’s
understanding of the law was wrong if he thought that the trial judge’s answers to the jury’s
questions were correct statements of law.’’ (ECF No. 22 p. 2).5 In support of this contention,
Petitioner cites to the Model Penal Code for the proposition that statutory rape is not a strict
liability crime. He maintains that “whatever is done under a mistaken impression of
material fact is excused or provides grounds for relief’ and the trial court’s instructions to
the contrary is clearly erroneous. (ECF No. 22 p. 7). Thus, his counsel’s failure to object
amounts to ineffective assistance of counsel.
Despite Petitioner’s objections, the Model Penal Code has no bearing on this matter.
The South Carolina statute at issue, S.C. Code Ann. § 16-3-655(B)(2), does not include
mistake-of-age as a defense. Moreover, the version of the statute in effect at the time of the
incident in question is a version wherein the General Assembly removed a previously
included mistake-of-age defense. (ECF No. 19 p. 9-10). Therefore, the Magistrate Judge
correctly opined that Petitioner has failed to show his trial counsel’s understanding of the
law was not reasonable. Petitioner’s objections fail to identify any specific legal authority
supporting his contention that a mistake-of-age w4s a viable defense to the South Carolina

-j

5 Initially, this argument appears to be a mere disagreement with the Magistrate Judge’s
conclusion supported by a rehashing of the same arguments previously presented to the
court in Petitioner’s initial petition and in response to the motion for summary judgement.
7

2:19-cv-01284-JFA

Date Filed 10/31/19

Entry Number 26

Page 8 of 11

criminal statute under which he was convicted in 2009. Accordingly, this claim must be
denied.
As to Ground Two, the Magistrate Judge concluded that the trial judge’s response
to the jury’s questions were correct because the South Carolina statute at issue has no
explicit intent element. The statue, S.C. Code Ann. § 16-3-655(B)(2), states in relevant
part:
A person is guilty of criminal sexual conduct with a minor in the second
degree if:
(2) the actor engages in sexual battery with a victim who is at least fourteen
years of age but who is less than sixteen years of age and the actor is in a
position of familial, custodial, or official authority to coerce the victim to
submit or is older than the victim. However, a person may not be convicted
of a violation of the provisions of this item if he is eighteen years of age or
less when he engages in consensual sexual conduct with another person who
is at least fourteen years of age.
The trial judge instructed the jury that:
The State must prove, beyond a reasonable doubt, that the victim was at least
fourteen years old and less than sixteen years old at the time of the sexual
battery. The State must also prove that the defendant was older than the
victim at the time of the sexual battery. Consent, willingness, or indifference,
or ignorance on the part of the minor, if any, as to what was taking place does
not affect, in any way, the charge of criminal sexual conduct with a minor
because an unmarried woman under the age of sixteen cannot legally consent
to sexual intercourse with anyone over the age of eighteen.
Petitioner argues that the Report “clearly indicated that the State did not read the
statute as a whole, or give full effect to each section, nor did the State read the Petitioner
as ‘ejusdem generis’ or treated'him similar to the three groups that the statute specifically
enumerated.” (ECF No. 22 p. 12-13). This is the same argument previously asserted by

8

2:19-CV-0-1284-JFA

Date Filed 10/31/19

Entry Number 26

Page 9 of 11

Petitioner and specifically addressed in the Report. In response to this argument, the
Magistrate Judge correctly opined that
[Petitioner’s] argument overlooks that the State can prove the element two
ways: (1) by showing the defendant was in one of the enumerated positions
of authority, or (2) by showing the defendant was older than the victim. See
In re Clinton P,, No. 2005-UP-220, 2005 WL 7083861, at *2 (S.C. Ct. App.
Mar. 24, 2005) (stating the statute “requires either” of those things). Wells’
indictment alleged only the second option; following suit, the trial court
charged the jury only on that option. (Dkt. No. 13-1 at 197, 342.) Unlike the
first option, the second option does not have “to coerce” or any other
language that might suggest intent; chronology is the only criterion. Because
Wells was indicted and convicted under that second option, the Court need
not determine whether intent must be shown to satisfy the first option.
(ECFNo. 19 p. 13).
Accordingly, Petitioner has failed to provide any proof that intent is an element of
his offense of conviction. Accordingly, Petitioner has failed to show any error in the trial
court judge’s answers to the contrary, let alone that his Constitutional rights were violated
as a result.
Additionally, to the extent that Petitioner asserts any new claims for relief not
included in his original petition, including the argument the Petitioner faults trial counsel
for not objecting to a portion of the trial court’s jury charge, those arguments were not
addressed by the Magistrate Judge and are likewise not addressed here. Habeas petitioners
cannot assert new claims for the first time in response to summary judgment motions.
Neumon v. Cartledge, No. 8:14-cv-2556-RMG, 2015 WL 4607732, at *9 (D.S.C. July 31,
2015).

9

2:19-cv-01284-JFA

Date Filed 10/31/19

Entry Number 26

Page 10 of 11

None of Petitioner’s attempted objections point to any errors in the Report.
Petitioner continuously reasserts the same arguments from his initial petition and
opposition to the summary judgment motion. Thus, Petitioner has not asserted any specific
objections. “Generally stated, nonspecific objections have the same effect as would a
failure to object.” Staley v. Norton, No. 9:07-0288-PMD, 2007 WL 821181, at *1 (D.S.C.
Mar. 2, 2007) (citing Howard v. Sec ’y ofHealth and Human Servs., 932 F.2d 505, 509 (6th
Cir. 1991)). To the extent that any of Petitioner’s arguments could constitute specific
objections, they fail to indicate any errors within the Report as discussed above.
IV.

CONCLUSION
After carefully reviewing the applicable laws, the record in this case, the Report and

Recommendation, and the objections thereto, this Court finds the Magistrate Judge’s
recommendation fairly and accurately summarizes the facts and applies the correct
principles of law. Accordingly, the Court adopts the Report and Recommendation. (ECF
No. 19). Thus, Respondent’s Motion for Summary Judgment (ECF No. 14) is granted and
Petitioner’s habeas petition (ECF No. 1) is dismissed with prejudice.
It is further ordered that a certificate of appealability is denied because Petitioner
has failed to make “a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2).6

6 A certificate of appealability will not issue absent “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). A prisoner satisfies this standard by demonstrating
that reasonable jurists would find both that his constitutional claims are debatable and that any
dispositive procedural rulings by the district court are also debatable or wrong. See Miller-El v.
Cockrell, 537 U.S. 322, 336 (2003); Slack v. McDaniel, 529 U.S. 473, 484 (2000); Rose v. Lee,
10

J

2:19-cv-01284-JFA

Date Filed 10/31/19

Entry Number 26

Page 11 of 11

IT IS SO ORDERED.

Joseph F. Anderson, Jr.
United States District Judge

October 31, 2019
Columbia, South Carolina

252 F.3d 676, 683 (4th Cir. 2001). In the instant matter, the Court finds that Petitioner has failed
to make “a substantial showing of the denial of a constitutional right.”
11

2:19-cv-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 1 of 16

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
Wayne Wells, Jr., #314139,
Petitioner,
v.

Terrie Wallace,
Respondent.

f

)
)
)
)
)
)
)
)
)
)

Case No*2:19-cv-l 284-JFA-MGB

REPORT AND RECOMMENDATION

Wayne Wells, a pro se state prisoner, seeks habeas corpus under 28 U.S.C. § 2254. (Dkt.

No. 1.) The Warden seeks summary judgment. (Dkt. No. 14.) Under 28 U.S.C. § 636(b)(1)(B)
and Local Civil Rule 73.02(B)(2)(c) (D.S.C.), the undersigned is authorized to review the motion
and submit a recommendation to the District Judge. For the following reasons, the undersigned
recommends granting the Warden’s motion and dismissing this case with prejudice.

BACKGROUND
In the summer of 2009, Wells was in a sexual relationship. (Dkt. No. 13-1 at 44^15.) He
was twenty-five. (Id. at 47.) She was fifteen. (Id. at 33.) The relationship came to a halt when
the victim’s stepfather discovered Wells in their house and called the police. (Id. at 48-50.)
Wells admits having sexual contact with the victim. He maintains, however, she said she
was eighteen and he believed her.
Trial and Direct Appeal
Wells was indicted for second-degree criminal sexual conduct with a minor. (Dkt. No. 131 at 342.) He went to trial in November 2010. (Id. at 1.) The victim testified that when she first
met Wells, she told him she was eighteen. (Id. at 36, 39.) The next time they met, however, he
asked her if she was fifteen, as one of her friends had told him that. (Id. at 42.) She admitted that
Page 1 of 15

2:19-cv-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 2 of 16

was her real age; a couple of hours later, they had sex. (Id. at 42-43.) Over the summer, they had
sex several more times. Each time, he came over to her house after midnight, climbing through
her bedroom window. (Id. at 43-46.)
Wells testified in his defense. He told the jury the victim said she was eighteen and never
told him anything different. (Dkt. No. 13-1 at 145, 154.) He did not know she actually was fifteen
until her stepfather found him in the house and confronted him. (Id. at 148.) Had Wells known
her true age, he would not have had a sexual relationship with her. (Id. at 152.)
As he had done in his opening statement, Wells’ trial counsel argued in closing that the
victim lied to Wells about her age, causing Wells to mistakenly think she was eighteen. (Dkt. No.
13-1 at 32, 175, 177.) After the State made its closing argument, the trial court charged the jury.
(Id. at 179-196.) Its instructions included the following:
The State must prove, beyond a reasonable doubt, that the victim was at least
fourteen years old and less than sixteen years old at the time of the sexual battery.
The State must also prove that the defendant was older than the victim at the time
of the sexual battery. Consent, willingness, or indifference, or ignorance on the
part of the minor, if any, as to what was taking place does not affect, in any way,
the charge of criminal sexual conduct with a minor because an unmarried woman
under the age of sixteen cannot legally consent to sexual intercourse with anyone
over the age of eighteen.
(Id. at 197.)
During deliberations, the jury sent the court a question: “If the defendant truly believed the
victim was eighteen, does that matter and/or is ignorance of her age no excuse?” (Dkt. No. 13-1 at
198.) The court answered, “No, and ignorance is no excuse.” (Id.) Trial counsel did not object
to the court’s answer. (Id.)
The jury found Wells guilty. (Dkt. No. 20-1 at 329.) The court sentenced him to twenty
years in prison. (Id. at 207.)

Page 2 of 15

k\'

2:19-CV-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 3 of 16

Wells appealed. (Dkt. No. 13-1 at 209-20.) His appointed appellate attorney argued the
trial court erroneously admitted the victim’s testimony about her friend telling Wells the victim’s
true age. (Id. at 212.) However, appellate counsel conceded the appeal lacked sufficient merit to
warrant reversal. (Id. at 219.) Wells then filed his own brief, arguing the trial court (1) gave an
answer to the jury’s question that violated the Sixth and Fourteenth Amendments; (2) improperly
refused to instruct the jury on mitigating circumstances; and (3) erred by not directing a verdict in
his favor. (Id. at 222-32.) The Court of Appeals dismissed the appeal without a hearing. (Id. at
233-34.)
PCR Proceedings
After his direct appeal ended, Wells applied for post-conviction relief (“PCR”). (Dkt. No.
13-1 at 236^13.) He alleged that the trial court was biased, that trial counsel provided ineffective
assistance, and that he was denied a fair trial. (Id. at 238.) Wells was appointed a lawyer, and the
State filed a return. (Id. at 244—49.)
The PCR court held a hearing. (Dkt. No. 13-1 at 250-75.) Wells and his trial counsel
testified; neither side introduced any exhibits. (Id. at 251-52.) Wells testified the State made two
plea offers before trial, but trial counsel failed to discuss them with him. (Id. at 255—56.) He also
faulted trial counsel for not objecting to what the trial court told the jury about mistake of age. (Id.
258-60.) The court’s answer, Wells noted, undermined his trial testimony that he did not know
the victim’s real age, as well trial counsel’s jury arguments that Wells made a mistake. (Id. at
258-61.) Wells testified he told counsel to object, but counsel refused. (Id. at 260-61.)
Trial counsel testified that, in pre-trial meetings, Wells said he had been mistaken about
the victim’s age. (Id. at 267-68.) Counsel told him mistake was no defense to the charge, but
Wells was adamant about going to trial and telling his story “regardless of what [counsel] said.”

Page 3 of 15

,,

2:19-cv-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 4 of 16

(Id. at 267-68, 271.) Although counsel felt the State’s case was “overwhelming,” he went to trial
based on Wells’ wishes. (Id. at 268.) At trial, he tried to present a defense consistent with Wells’
side of the story. (Id.) When the jury asked its question, counsel did not object to the court-’s
answer because'he thought it was correct. (Id. at 70.)
The PCR court denied Wells’ application in July 2014. (Dkt. No. 13-1 at 276-85.) As to
the trial court’s answer to the jury question, the PCR court found counsel reasonably declined to
object because he thought the answer was correct. (Id. at 284.) The PCR court also rejected Wells’
claim about plea offers. (Id. at 281-84.) Finally, the court found Wells had abandoned all other
claims in his application by not pursuing them at the hearing. (Id.)
Wells filed a second PCR application in April 2015. (Dkt. No. 13-1 at 292-307.) Among
other things, he alleged PCR counsel failed to pursue an appeal for him. (Id. at 293, 301.) With
the State’s consent, a different PCR court granted Wells an opportunity to file a belated appeal.
(Id. at 331, 334-337.)
Through appointed counsel, Wells then petitioned for certiorari. (Dkt. No. 13-5.) Wells
raised one issue: whether the first PCR court erred in denying his ineffective-assistance claim
about the trial court’s answer to the jury’s question. (Id. at 3.) The state Supreme Court transferred
the case to the Court of Appeals, which summarily denied Wells’ petition. (Dkt. No. 13-6 at 8;
Dkt. No. 13-7.)
PROCEDURAL HISTORY
Wells filed his habeas petition in April 2018. (Dkt. No. 1-2 at 1.) He asserts two grounds:
Ground One: Trial Counsel was ineffective when [he] failed to object to Trial
Court’s] erroneous instruction pertaining to Applicant’s knowledge of victim’s age
to jury’s question[.]
Supporting Facts: The answers to the jury’s question by the Court were an
invasion of the province of the jury [] which remove[d] critical material facts from
the consideration and violated the applicant’s constitutional right to a fair and
Page 4 of 15

2:19-cv-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 5 of 16

impartial trial by his peers. In the light Trial Counsel failure to object and make
Court aware that if the jury reasonably believe that the applicant proved by the
preponderance of the evidence that he believe the victim to be 18 years age was
ultimately the jurors[’] discretion and must be left free for their consideration only.
Ground Two: Trial Judge[’s] answers to jury questions violated Applicants] due
process rights to a fair and impartial trial of his peers.
Supporting Facts: Trial Court[’s] answers to the jury’s question did not allow[]
the jury to consider the Applicant’s defense and it remove[d] critical material facts
from the jury[’s] consideration. Criminal statutes are presumed to require a mens
rea clause and some congressional intent, express or implied, is required to
dispense with mens rea as an element of a crime.
(Dkt. No. 1 at 5, 6-7.) Wells asks for a new trial. {Id. at 14.)
The Warden seeks summary judgment on both claims. (Dkt. No. 14.) Wells has filed a
response, and the Warden has replied. (Dkt. Nos. 17 & 18.) Thus, the Warden’s motion is ripe.
LEGAL STANDARD
Habeas corpus in federal court exists to “guard against extreme malfunctions in the state
criminal justice systems.” Harrington v. Richter, 562 U.S. 86, 102 (2011) (citation and internal
quotation marks omitted). Federal habeas is neither an alternative to state-court relief nor an
additional chance to appeal erroneous state-court rulings. See id.

That preference for, and

deference to, state courts is borne out in the various constraints placed on federal courts. See Shoop
v. Hill, 139 S. Ct. 504, 506 (2019) (per curiam) (stating § 2254 “imposes important limitations on

the power of federal courts to overturn the judgments of state courts in criminal cases”); see also
Woods v. Donald, 135 S. Ct. 1372,1376 (2015) (stating § 2254 “reflects] a presumption that state
courts know and follow the law” (citation and internal quotation marks omitted)).
For instance, state prisoners who challenge matters “adjudicated on the merits in State
court” cannot get relief in federal court unless they show that the state Court’s decision “was
contrary to, or involved an unreasonable application of, clearly established Federal law”
. announced by the Supreme Court or “was based on an unreasonable determination of the facts in
Page 5 of 15

2:19-cv-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 6 of 16

light of the evidence presented in the State court proceeding.” § 2254(d). That means a state
court’s ruling must be "so lacking in justification that there was an error well understood and
cornprehended'iTl-oxistin^tew beyond'any possibility-forTairminded disagreement^” Harrington,
562 U.S. at 103. Federal courts must also defer to state courts’ factual determinations, which are
presumed correct until the prisoner rebuts that presumption with clear and convincing
evidence. § 2254(e)(1).
In addition, before state prisoners may try to clear those high hurdles, two rules steer them
to first pursue all relief available in the state courts. See § 2254(b)(1). The first, known as
exhaustion of remedies, requires a prisoner to present his claims to the highest state court with
jurisdiction to decide them. Stewart v. Warden of Lieber Corr. Inst., 701 F. Supp. 2d 785, 790
(D.S.C. 2010). A federal court cannot grant a prisoner’s habeas petition until he exhausts his state*

court remedies. § 2254(b)(1), (c). The second rule, called procedural default, comes into play
when a prisoner failed to present a claim to the state courts at the appropriate time and has no
means of doing so now. Stewart, 701 F. Supp. 2d at 790. Federal courts may not consider a
procedurally defaulted claim unless the prisoner shows either that he has cause for defaulting and
that the alleged violation of federal law prejudiced him, or that not-addressing't'be'claim would be
r<arfundamentaFmiscarr-iage'of justice."

Coleman v. Thompson, 501 U.S. 722, 750 (1991).

The ultimate issue in this case is, of course, whether Wells should receive habeas relief
under these standards. However, the Warden’s summary judgment motion presents narrower
questions. Summary judgment is appropriate only if the moving party show’s that “there is no
genuine-dispute as to any material fact” and that he is “entitled to judgment as a matter of
,1a®,” Fed. R. Civ. P, 56(a); see also Rule 12, Rules Governing § 2254 Cases (stating courts may
apply in habeas cases any of the Federal Rules of Civil Procedure to the extent they are not

Page 6 of 15

2:19-cv-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 7 of 16

inconsistent with statutes or the § 2254 rules). A party may support or refute that a material fact
is not disputed by “Citing to particular parts of materials in the record” or by “showing that the'
materials cited do not establish the absence or "presence of a genuine dispute, or that an adverse
party (Cannot produceladmissible-evidenc^to support the fact.” Fed. R. Civ. P. 56(c)(1). Rule
56 mandates entry of summary judgment “against a party who fails to make a showing sufficient
to establish the existence of an element essential to that party’s case.” Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986).
Viewing the habeas rules through the lens of Rule 56, the Court has three questions to
answer at this juncture:
(1)
(2)
(3)

Are there genuine issues of fact as to whether Wells’ claims are properly
before the Court?
Are there.genuine issues of fact as to the merits of Wells’ claims?
If the answer to either (or both) of the first two questions is “no,” is the
Warden entitled to judgment as a matter of law?

In answering those questions, the undersigned has carefully considered the record before the Court
and has liberally construed the materials Wells has submitted. See, e.g., Erickson v. Pardus, 551
U.S. 89, 94 (2007).
DISCUSSION
The Warden contends that both of Wells’ grounds lack merit and that Ground Two also
fails because it is not a valid habeas claim. Wells resists those arguments, and he appears to assert
a new claim in his response brief.
I.

Ground One

The Sixth Amendment guarantees criminal defendants effective assistance of counsel.
Strickland v. Washington, 466 U.S. 668, 686 (1984). A petitioner proves ineffective assistance by
showing his attorney’s performance was deficient and prejudiced him. Id. at 687. An attorney’s

Page 7 of 15

2:19-cv-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 8 of 16

performance is deficient if it was unreasonable under the circumstances of the case and under thenprevailing professional norms. Kimmelman v. Morrison, All U.S. 365, 384 (1986). Prejudice is
a “reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 694. A “reasonable probability” means “a
probability sufficient to undermine confidence in the outcome.” Kimmelman, All U.S. at 384.
Strickland is highly deferential to counsel, and § 2254(d) is highly deferential to state
courts. Harrington v. Richter, 562 U.S. 86, 105 (2011). That makes this Court’s review “doubly
deferential.” Knowles v. Mirzayance, 556 U.S. 111, 123 (2009). The question here is “not whether
counsel’s actions were reasonable” but “whether there is any reasonable argument that [Byrd’s]
counsel satisfied Strickland’’s deferential standard.” Harrington, 562 U.S. at 105.1 The record
before the Court demonstrates the answer is yes.
Although the PCR court found trial counsel reasonably declined to challenge the trial
court’s answer, it did not say whether the answer was correctT^Dkt. No. 13-1 at 284.) Wells insists
mistake of age was a valid defense, and thus the trial court was wrong and counsel should have
objected. The Warden argues just as forcefully that South Carolina law afforded 'Welts no such
defense, which means counsel acted reasonably beeause the trial court was right.
These arguments invite the Court to decide a question of state law. The Court need not go
that far. The PCR court based its decision on counsel testifying he thought the trial court stated
the law correctly. (Dkt. No. 13-1 at 284.) Under Knowles, all this Court must do is satisfy itself
that counsel’s understanding of South Carolina law was not unmistakably wrong.
1
Subsection 2254(d)’s standards are to be applied to the decision from the highest state court to decide the
claim at issue on the merits. See Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018). Where, as here, the highest state
court rules summarily, the federal habeas court should “look through” that unexplained decision to the last state-court
decision that provides a relevant rationale, and “should then presume that the unexplained decision adopted the same
reasoning.” Id. In this case, the PCR court was the only one to issue a reasoned decision on Wells’ claims. As neither
party contends the Court of Appeals denied certiorari on different reasoning than what the PCR court provided, the
undersigned has applied Sellers by using the PCR court’s decision to analyze Ground One.
Page 8 of 15

2:19-cv-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 9 of 16

The definition of the crime at issue here is found at subsection 16-3-655(B)(2) of the South
Carolina Code. Since 2008, it has read as follows:
A person is guilty of criminal sexual conduct with a minor in the second degree if:

(2) the actor engages in sexual battery with a victim who is at least fourteen years
of age but who is less than sixteen years of age and the actor is in a position of
familial, custodial, or official authority to coerce the victim to submit or is older
than the victim. However, a person may not be convicted of a violation of the
provisions of this item if he is eighteen years of age or less when he engages in
consensual sexual conduct with another person who is at least fourteen years of
age.
2008 Act No. 335, § 18. The statute itself does not say whether a mistake 'of age matters, but
related legal authorities and the history of the statute shed some light.
In 1973, South Carolina’s Supreme Court addressed the constitutionality of a statute
outlawing sex with mental patients. State v. Guinyard, 195 S.E.2d 392 (S.C. 1973). The statute
created no exception for people who were ignorant of their partner’s status. Id. at 395. The
Supreme Court held the State could make the crime a strict-liability offense, as that helped protect
a larger portion of mental patients. Id. Of relevance here, the court found the offense’s lack
omission of an intent element “in harmony with the rule adopted by practically all of the courts
that, under a charge of statutory rape, the honest belief of the accused that the complainant was of
the age of consent when in fact she was not constitutes no defense.” Id. at 395-96.
Thirty-three years later, South Carolina’s Attorney General’s Office issued an opinion
letter discussing some recent amendments to subsection 16-3-655(B)(2). See 2006 WL 2382448
(S.C.A.G. July 14, 2006). Reviewing the statute’s history, the opinion states the “common law
did not recognize a ‘mistake of age’ defense to statutory rape or the sexual battery of a female
under the age of consent.” Id. at *5. Rather, the opinion explains, “[statutory rape has typically

Page 9 of 15

2:19-CV-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 10 of 16

been viewed as a “strict liability crime ... in which the victim’s apparent maturity is not a defense
[and is] ... <a'reco:gni2edxxceptiond0 the^eneral mre~fequiriTrg"rae«s:rerfiifcrrmiTiar"statute's^’ Id.
(citation and quotation marks omitted). Notably, the opinion bases that discussion in part on
Guinyard. Id. at * 4.
The Attorney General’s office issued that 2006 opinion to a legislator who had expressed
concern about an amendment to subsection 16-3-655(B)(2) that the General Assembly had passed
several weeks earlier. See 2006 WL 2382448, at *1. The General Assembly added a sentence to
the statute stating mistake of age was a defense. 2006 Act No. 346, § 1. Two years later, however,
the legislature amended subsection 16-3-655(B)(2) again; the amended version removed the
sentence. 2008 Act No. 335, § 18.2 The 2008 version of the statute was in effect during Wells’
liaisons with the victim. See id. § 23 (providing the version became effective in June 2008).
Comparing the two versions of the statute suggests the General Assembly intended to
eliminate the mistake-of-age defense and return to the common law. Importantly, Wells has no?
identified any Tegaramhbrity saying that, despite the 2008 amendment, mistake of age was a viable
defehse in 2009. In other words, Wells has not shown trial counsel’s understanding of the la\\
was—right or wrong anything other than reasonable. Wells has thus failed to show the PCR
court reached a legally or factually unreasonable result under § 2254(d). The undersigned
recommends denying this claim.
II.

Ground Two

Wells claims the trial court’s answer to the jury’s question denied him due process, as it
invaded the jury’s exclusive power to decide a factual issue relating to an element of the charged
crime. (Dkt. No. 1 at 7.)

The 2008 amendment made other changes not relevant here.
Page 10 of 15

2:i9-cv-01284-JFA

A.

Date Filed 08/29/19

Entry Number 19

Page 11 of 16

Legal Validity

The Warden argues Ground Two is not cognizable in habeas because it is merely a statelaw claim to which Wells has attached a federal label. (Dkt. No. 13 at 18.) It is true that “[s]imply
citing to the due process or equal protection clauses of the United States Constitution does not
transform a claim grounded in state law into a federal law claim.” Kitt v. Cohen, No. 2:ll-cv2876-TMC, 2012 WL 12952688, at *2 (D.S.C. July 20, 2012) (citation omitted).

But the

undersigned views Wells’ claim as more than that. Jury instructions that have the “effect of
relieving the State of its burden of persuasion beyond a reasonable doubt of every essential element
of a crime” can violate the Fourteenth Amendment’s Due Process Clause. Francis v. Franklin,
471 U.S. 307, 313 (1985). Although Wells phrases his claim in terms of invading the jury’s
province, he is in substance asserting the trial court’s answer enabled the State to win without
proving the essential element of intent. As Francis was a habeas case, 471 U.S. at 312, it shows
that Wells’ claim can be heard here.
B.

Procedural Default

No state court ever ruled on this claim. In the abstract, that might raise questions about
whether the claim may be procedurally defaulted and, if so, whether merits review is nevertheless
appropriate. However, procedural default is an affirmative defense, Yeatts v. Angelone, 166 F.3d
255, 261 (4th Cir. 1999), and the Warden did not raise it here. To the contrary, he asserted
procedural default does not apply because the claim is not cognizable in habeas. (Dkt. No. 13 at
11.)
Although federal courts have discretion to raise procedural default themselves and deny
habeas claims on that basis, Yeatts, 166 F.3d at 261, the undersigned recommends instead resolving
Ground Two on the merits. Because the Warden did not assert procedural default for Ground Two,

Page 11 of 15

2:19-cv-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 12 of 16

Wells has not had a fair opportunity to address it. See id. at 262 (directing courts who raise
procedural default themselves to consider whether justice requires giving the petitioner an
opportunity to brief that issue).
C.

Merits Review

Like its ineffective-assistance counterpart, Well’s due-process claim turns on an important
premise of state law: that South Carolina second-degree criminal sexual conduct with a minor has
an intent element that can be negated by a mistake about the victim’s age. rAs-drscussed-above,
-the statute has no explicit intent element. Wells, however, insists intent is an implicit element.
(Dkt. No. 17 at 17.)
Wells bases his position on two Supreme Court cases. In Staples v. United States, the
Supreme Court discussed the general presumption that intent is an implied element in a statutory
crime with no explicit intent requirement. See 511 U.S. 600, 605-06 (1994). That presumption
against strict-liability crimes, the Court explained, comes from the common law’s “firmly
embedded” requirement that crimes typically have “some mens rea.” Id. at 605. Similarly, in
Morissette v. United States, the Supreme Court explained the presumption has roots in states’
codification of the common law. See 342 U.S. 246, 251-52 (1952). Because the “concurrence of
an evil-meaning mind with an evil-doing hand” was engrained in almost all common-law crimes,
the omission of intent language from statutes codifying those crimes reflected the states’
recognition “that intent was so inherent in the offense that it required no statutory affirmation.”
Id.
Relying on Staples and Morissette, Wells argues subsection 16-3-655(B)(2) must be
presumed to include an implied intent element. Wells’ argument has two flaws. First, in a more
recent discussion of the presumption, the Supreme Court'pointed out that statutory rape is an

Page 12 of 15

2:19-CV-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 13 of 16

exception-to it. Deanv. United States, 556 U.S. 568, 580 (2009). Second, the Morissette Court
explained the presumption is really a smaller piece of a larger one: that, when the states codified
common-law crimes, they intended not to change those crimes’ established elements. As two
branches of South Carolina’s government have stated, the crime we now sometimes call (Statutory
rape was, at common law, a strict-liability offense that did not countenance mistakes of age. Thus,
if any presumption about the common law attaches to subsection 16-3-655(B)(2), it would be- a
'presumption that the crime has no intent element.
Wells also argues subsection 16-3-655(B)(2) itself suggests the State must prove intent.
He focuses on its language that “the actor is in a position of familial,custodial, or official authority
to coerce the victim to submit or is older than the victim.” He appears to be asserting that because
coercion is an intentional act, the use of “to coerce” shows intent is an essential part of the offense.
{See Dkt.No. 17 at 17.)
Wells’ argument overlooks that the State can prove the element two ways: (1) by showing
the defendant was in one of the enumerated positions of authority, or (2) by showing the defendant
was older than the victim. See In re Clinton P., No. 2005-UP-220, 2005 WL 7083861, at *2 (S.C.
Ct. App. Mar. 24, 2005) (stating the statute “requires either” of those things). Wells’ indictment
alleged only the second option; following suit,'the trial court charged the jury only on that option.
(Dkt. No. 13-1 at 197, 342.) Unlike the first option, the second option does not have “to coerce”
or any other language that might suggest intent; chronology is the only criterion. Because Wells
was indicted and convicted under that second option, the Court need not determine whether intent
CT.;

must be shown to satisfy .the. first option.
It appears South Carolina’s courts have not decided whether mistake of age is a defense to
any version of subsection 16-3-655(B)(2) (other than the short-lived 2006 version).

Page 13 of 15

The

r

2:19-cv-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 14 of 16

undersigned stresses she is not attempting to do so here. Rather, she addresses only a narrow
question: has Wells come forward with proof that intent is an element of his offense of conviction?
The undersigned concludes only that he has not. His failure to do so prevents him from showing
the trial court told the jury something that relieved the State of its burden to prove an element of
the crime. The undersigned therefore recommends denying this claim on the merits.
III.

New Claim

In his response brief, Wells faults trial counsel for not objecting to a portion of the trial
court’s jury charge. (Dkt. No. 17 at 7-8.) This appears to be a new claim; Wells did not assert it
in his habeas petition. Habeas petitioners cannot assert new claims for the first time in response
to summary judgment motions. Neumon v. Cartledge, No. 8:14-cv-2556-RMG, 2015 WL
4607732, at *9 (D.S.C. July 31, 2015). The undersigned therefore recommends not addressing
Wells’ claim.3
IV.

Certificate of Appealability

If the Warden’s summary judgment motion is granted, the District Judge will need to
decide whether to issue a certificate of appealability. See Rule 11(a), Rules Governing § 2254
Cases.

A certificate may be issued only upon a “substantial showing of the denial of a

constitutional right.” 28 U.S.C. § 2253(c)(2). Where a petitioner’s constitutional claims have been
denied on the merits, the petitioner must demonstrate that “reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong.” Miller-El v. Cockrell, 537
U.S. 322, 338 (2003) (citation and quotation marks omitted). Where a petitioner’s constitutional
claims are dismissed on procedural grounds, the petitioner must show both (1) that jurists of reason
would find it debatable whether the petition states a valid claim of denial of a constitutional right,

3
The Warden argues the claim is also procedurally barred, is untimely, and lacks merit. (Dkt. No. 18 at 2-4.)
Because Wells’ failure to raise the claim in his habeas petition is dispositive, the Court need not reach those issues.
Page 14 of 15

2:19-cv-01284-JFA

Date Filed 08/29/19

Entry Number 19

Page 15 of 16

and (2) that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling. Rose v. Lee, 252 F.3d 676, 684 (4th Cir. 2001). The undersigned does not see
a basis for issuing a certificate in this case.

/

CONCLUSION
For the above reasons, the undersigned recommends the Court grant the Warden’s motion,
dismiss this case with prejudice, and decline to issue a certificate of appealability.
IT IS SO RECOMMENDED.

August 29, 2019
Charleston, South Carolina

MARY q(5RbON BAKER
UNITED STATES MAGISTRATE JUDGE

The parties’ attention is directed to the important notice on the next page.

Page 15 of 15

